«

APPENDIX A

Appellate Case: 19-1436

Document: 010110363248

Date Filed: 06/18/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 18,2020
Christopher M. Wolpert
Clerk of Court

WARREN WEXLER,
Plaintiff - Appellant,

No. 19-1436
(D.C. No. 1:18-CV-02378-CMA-STV)
(D. Colo.)

v.

UNITED STATES OF AMERICA,
Defendant - Appellee.
ORDER

Before MATHESON, KELLY, and EID, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

e

APPENDIX B

Appellate Case: 19-1436

Document: 010110338406

Date Filed: 04/24/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 24, 2020
Christopher M. Wolpert
Clerk of Court

WARREN WEXLER,
Plaintiff - Appellant,
v.
UNITED STATES OF AMERICA,

No. 19-1436
(D.C.No. 1:18-CV-02378-CMA-STV)
(D. Colo.)

Defendant - Appellee.
ORDER AND JUDGMENT*
Before MATHESON, KELLY, and EID, Circuit Judges.**
Plaintiff-Appellant Warren Wexler, appearing pro se, appeals from the district
court’s order granting the government’s motion to dismiss under Federal Rule of
Civil Procedure 12(b)(1) for lack of subject matter jurisdiction. Wexler v. United
States. 18-cv-02378-CMA-STV, 2019 WL 3562066, Order Adopting the
Recommendation of United States Magistrate Judge Scott T. Varholak (ECF No. 50)
(D. Colo. Aug. 6, 2019). The district court held that sovereign immunity barred Mr.

* This order and judgment is not binding precedent, except under the doctrines
of law of the case, res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
** After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument.

Appellate Case: 19-1436

Document: 010110338406

Date Filed: 04/24/2020

Page: 2

Wexler’s claim for intentional or negligent infliction of emotional distress pursuant
to the Federal Tort Claims Act (FTCA). Because the claim arose from the
government’s performance of a discretionary act, it fell under the FTCA’s
discretionary function exception. Mr. Wexler then sought reconsideration, which
was denied. We have jurisdiction pursuant to 28 U.S.C. § 1291, and we affirm.!
As the parties are familiar with the facts, they are omitted here. “We review
de novo a dismissal for lack of subject matter jurisdiction pursuant to Rule 12(b)(1)
and review findings of jurisdictional facts for clear error.” Butler v, Kempthorne,
532 F.3d 1108, 1110 (10th Cir. 2008).
The FTCA does not apply to “[a]ny claim . . . based upon the exercise or
performance or the failure to exercise or perform a discretionary function or duty on
the part of a federal agency or an employee of the Government, whether or not the
discretion involved be abused.” 28 U.S.C. § 2680(a). In other words, “the
discretionary function exception insulates the Government from liability if the action
challenged in the case involves the permissible exercise of policy judgment.”
Berkovitz v. United States. 486 U.S. 531, 537 (1988). To determine whether this
exception applies, we conduct a two-part inquiry. First, we must “consider whether
the action is a matter of choice for the acting employee.” Id at 536. “If the action
does involve such choice, we must then consider whether the type of action at issue is
‘susceptible to policy analysis.’” Sydnes v. United States, 523 F.3d 1179, 1183 (10th
Cir. 2008) (quoting United States v. Gaubert, 499 U.S. 315, 325 (1991)). “If both of

2

Appellate Case: 19-1436

Document: 010110338406

Date Filed: 04/24/2020

Page: 3

these conditions are met, the discretionary function exception applies and [the]
sovereign immunity doctrine precludes suit.” Id
The district court correctly held that the discretionary function exception
applies. The Federal Employees’ Compensation Act (FECA) Procedural Manual
does not prohibit a claim examiner (CE) from seeking a second opinion specialist in
situations not expressly outlined in the manual. See Wexler. 2019 WL 3562066, at
*5. Indeed, contrary to Mr. Wexler’s position, the decision to seek a second opinion
specialist is squarely within the purview of a CE. See FECA Procedural Manual, Ch.
3-0500(3)(a) (“The decision to refer a case for a second opinion examination rests
with the CE.”). Accordingly, the first part of the Berkovitz test is satisfied.
The second part of the Berkovitz test is satisfied because determining
continued entitlement to FECA benefits, including a second opinion examination,
serves “the public policies of regulating FECA claims and preventing criminal fraud
against the Government.” Wexler, 2019 WL 3562066, at *7 (internal quotation
marks omitted). As both parts of the Berkovitz test are satisfied, the discretionary
function exception applies and the district court correctly held that Mr. Wexler’s
claims were barred and properly dismissed the action.
AFFIRMED.
Entered for the Court
Paul J. Kelly, Jr.
Circuit Judge

3

1

APPENDIX C

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 1 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 509

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 18-cv-02378-CMA-STV
WARREN WEXLER,
Plaintiff,

v.
UNITED STATES OF AMERICA,
Defendant.
ORDER DENYING PLAINTIFF’S RULE 59(E) MOTION TO ALTER OR AMEND THE
COURT’S JUDGMENT
This matter is before the Court on Plaintiff Warren Wexler’s Rule 59(e) Motion to
Alter or Amend the Court’s Judgment (Doc. # 52). Plaintiff requests the Court to
reconsider its Order Adopting Magistrate Judge Varholak’s Recommendation to Grant
Defendant United States’ Motion to Dismiss (Doc. # 50). On September 23, 2019,
Defendant responded. (Doc. # 56.) In addition to filing his Reply to the Response on
October 3, 2019 (Doc. # 57), Plaintiff filed several supplements1 (Doc. ## 53, 54, 55, 58)
to the Motion. Having reviewed the underlying briefing, pertinent record, and applicable
law, for the following reasons, the Court denies Plaintiff’s Motion.

1

The contents of these supplements contain corrections, modifications, or arguments related to
the instant Motion (Doc. # 52).

509

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 2 of 14
Appellate Case: 19-1436

Document: 010110266950

I.

Date Filed: 11/27/2019

Page: 510

BACKGROUND

The Court’s Order Adopting Magistrate Judge Varholak’s Recommendation to
Grant Defendant’s Motion to Dismiss (Doc. # 50) and the Recommendation (Doc. # 27)
provide a thorough recitation of the applicable legal standards and factual and
procedural background of this dispute and are incorporated herein by reference.
Accordingly, the legal standards and facts will be presented only to the extent
necessary to address the instant Motion.
A.

APPLICABLE LEGAL STANDARDS
“[Sovereign immunity shields the Federal Government and its agencies from

suit.” F.D.I.C. v. Meyer, 510 U.S. 471,475 (1984). As such, “[s]overeign immunity
precludes federal court jurisdiction.” Garling v. United States Envtl. Prot. Agency, 849
F.3d 1289, 1294 (10th Cir. 2017). Indeed, “[i]t is axiomatic that the United States may
not be sued without its consent and that the existence of consent is a prerequisite for
jurisdiction.” United States v. Mitchell, 463 U.S. 206, 212 (1983). The “United States can
be sued only to the extent that it has waived its immunity.” Garling, 849 F.3d at 1294
(quoting United States v. Orleans, 425 U.S. 807, 814 (1976)).
The Federal Torts Claim Act “is a limited waiver of sovereign immunity, making
the Federal Government liable to the same extent as a private party for certain torts of
federal employees acting within the scope of their employment.” Orleans, 425 U.S. at
814; 28 U.S.C. § 1346(b)(1). However, 28 U.S.C. § 2680 provides exceptions to this
waiver. Garling, 849 F.3d at 1294. “When an exception applies, sovereign immunity
remains, and federal courts lack jurisdiction.” Id.

2
510

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 3 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 511

Relevant for resolving the instant Motion, the discretionary function exception set
forth in 28 U.S.C. § 2680(a) provides:
Any claim based upon an act or omission of an employee of the
Government, exercising due care, in the execution of a statute or
regulation, whether or not such statute or regulation be valid, or based
upon the exercise or performance or the failure to exercise or perform a
discretionary function or duty on the part of a federal agency or an
employee of the Government, whether or not the discretion involved be
abused.
The “discretionary function exception ‘marks the boundary between Congress’
willingness to impose tort liability upon the United States and its desire to protect certain
governmental activities from exposure to suit by private individuals.’” Garling, 849 F.3d
at 1295 (quoting United States v. S.A. Empresa de Viacao Aerea Rio Grandense, 467
U.S. 797, 808(1984)).
Courts apply a two-step test to determine whether the discretionary function
exception applies to a government action. Berkovitz v. United States, 486 U.S. 531
(1988). First, a court must determine whether the act was discretionary, that is, whether
the act was “a matter of choice” or “judgment” for the acting employee.” Sydnes v.
United States, 523 F.3d 1179, 1183 (10th Cir. 2008) (quotations omitted); Garling, 849
F.3d at 1295 (citing Garcia v. Air Force, 533 F.3d 1170, 1176 (10th Cir. 2008)).
“Conduct is not discretionary if a federal statute, regulation, or policy specifically
prescribes a course of action for an employee to follow. In this event, the employee has
no rightful option but to adhere to the directive.” Garcia, 533 F.3d at 1176. If the conduct
is discretionary, the court moves to the second step of the Berkovitz test and considers

3

511

Case 1:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 4 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 512

whether the conduct required the “exercise of judgment based on considerations of
public policy.” Garling, 849 F.3d at 1295; Berkovitz, 486 U.S. at 536-37.
The Federal Employees’ Compensation Act (“FECA”) “defines the United States’
exclusive liability for claims by federal employees for work-related injuries.” Wideman v.
Watson, 617 F. App’x 891, 894 (10th Cir. 2015) (citing 5 U.S.C. §§ 8102(a), 8116(c));
Farley v. United States, 162 F.3d 613, 615 (10th Cir. 1998)). It provides that “the United
States will pay compensation for the disability or death of an employee resulting from
personal injury sustained while in the performance of his duty ....” 5 U.S.C. § 8102(a);
20 C.F.R. § 10.1. The Secretary of Labor may also prescribe rules and regulations
necessary for the administration and enforcement of the Act. 5 U.S.C. § 8149. The
authority provided by 5 U.S.C. §§ 8145 and 8149 has been delegated by the Secretary
to the Director of the Office of Worker’s Compensation (“OWCP”). 20 C.F.R. § 10.2. The
OWCP’s discretion in determining how to administer FECA has been described as
“virtually limitless.” See Markham v. United States, 434 F.3d 1185, 1188 (9th Cir. 2006).
A subdivision of OWCP, the Division of Federal Employees’ Compensation,
drafted the FECA Procedure Manual (“FECA Manual”) to “governQ claims under Q
FECA and addressQ its relationship to the program’s other written directives.” FECA PM
0-100(3), 0-0200(1). The FECA Manual “establishes policies, guidelines and procedures
for determining whether an injured employee is eligible for compensation.” Woodruff v.
U.S. Dep’t of Labor, 954 F.2d 634, 641 (11th Cir. 1992). Pertinent to the instant action,
the FECA Manual also governs the parameters for when a FECA claims examiner may

4
512

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 5 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 513

direct or schedule a second opinion examination of an injured employee. FECA PM 30500, 2-0810(9). Specifically, Chapter 3-0500, Paragraph 3 provides:
3. Second Opinion Examinations. The attending physician (AP) is the
primary source of medical evidence in most cases, and the AP is expected
to provide a rationalized medical opinion based on a complete medical
and factual background in order to resolve any pending issues in a case.
In certain circumstances, such as where the AP’s report does not meet
the needs of the OWCP, OWCP may schedule a second opinion
examination (SECOP).
a. Determining the Need for Examination. The decision to refer a
case for a second opinion examination rests with the CE,
though such an exam may be recommended by a Field Nurse (FN)
or District Medical Advisor (DMA), or requested by the employing
agency. A complete discussion of when a CE should refer a
second opinion examination is found in PM 2-0810-9 and 2-810-10.
Also, OWCP may send a case file for second opinion review where
actual examination is not needed, or when the employee is
deceased.
FECA PM 3-0500(3)(a) (emphases added).
Chapter 2-0810-9(b) provides that the claims examiner “should refer a claim to a
second opinion specialist in the following circumstances:”
(1) The CE has gathered all the medical information and evidence from
the AP and does not have enough evidence about a diagnosis or an
adequately reasoned opinion about causal relationship to accept the
case, but does have sufficient evidence to suggest that the claimant
might be entitled to benefits.
(2) The AP’s examinations and reports in occupational disease cases do
not provide the specific evidence that the OWCP requires for
adjudication. The primary examples include hearing loss and
asbestosis claims requiring examination in compliance with the
specifications outlined in FECA PM 3-0600, or an emotional injury case
where a compensable factor of employment is identified.
(3) Temporary total disability (TTD) has gone on longer than usual in a
case, and the AP is not an appropriate specialist or has not
5

513

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 6 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 514

satisfactorily explained the reason for the continued disability or why
the disability is causally related to the original work injury.
(4) The CE has reason to believe that a claimant is no longer disabled due
to the accepted work injury, or no longer has objective residuals of the
accepted injury, but the AP maintains that the claimant has residuals or
disability from the work injury and does not submit sufficient medical
rationale to support that opinion.
(5) The AP cannot or will not send an acceptable permanent impairment
evaluation based on the AMA Guides. If the AP has submitted an
examination report which outlines medical findings and calculates a
percentage of impairment based on the appropriate version of the AMA
Guides, the CE should submit the AP’s report to the DMA for the
schedule award calculation and forego referring the claimant to a
second opinion specialist for the same purpose.
(6) Following a consult or a referral with the DMA, the DMA indicates that
the file does not contain sufficient medical evidence to make a decision
on the medical issue or provide a rating of impairment. In such cases,
the DMA may recommend referring the case to a second opinion
specialist.
FECA PM 2-0810-9(b)(1)—(6) (emphasis added).
B.

FACTUAL BACKGROUND AND PROCEDURAL HISTORY
Plaintiff applied for FECA benefits in 1991, and upon the Office of Worker’s

Compensation’s (“OWCP”) approval of his application, OWCP began paying Plaintiff’s
wage-loss benefits for this total disability. (Doc. # 10 at 4.) In July 2015, pursuant to 5
U.S.C. § 8123(a), the Denver District Office (“DDO”) of the OWCP sent Plaintiff a letter
providing that a second opinion examination of him was scheduled for August 17, 2015.
(Doc. # 1-2 at 1; Doc. # 10-1 at 3, U 16.) Although Plaintiff objected in writing to the

6
514

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 7 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 515

second opinion examination request, Plaintiff attended the examination on August 17
2015. (Doc. # 10 at 5; Doc. # 1-2 at 21.)
On September 17, 2018, Plaintiff filed suit against Defendant and asserted an
intentional infliction of emotional distress claim arising out of the OWCP’s decision to
schedule Plaintiff for a second opinion examination. (Doc. # 1, Doc. # 1-2 at 12-15; 2122.) Defendant moved to dismiss Plaintiff’s Complaint for lack of subject matter
jurisdiction under Rule 12(b)(1) and for failure to state a claim pursuant to Rule 12(b)(6)
(Doc. # 10.) With respect to subject matter jurisdiction, Defendant argued that it was
immune to Plaintiff’s suit because the OWCP’s decision to schedule Plaintiff for a
second opinion examination was a “discretionary act,” and as such, Defendant’s
conduct fit within an exception to the FTCA, which waives sovereign immunity over
certain tort claims. (Id. at 7-10.) The Court referred Defendant’s Motion to Dismiss to
Magistrate Judge Varholak. (Doc. # 13.)
On April 24, 2019, Magistrate Judge Varholak issued his Recommendation that
the Court should dismiss Plaintiff’s Complaint for lack of subject matter jurisdiction.
(Doc. # 27.) On May 24, 2019, Plaintiff objected to the Recommendation and argued
that the discretionary function exception did not apply because, when Defendant
ordered the second opinion examination, it violated mandatory regulations set forth in
the FECA Manual, which purportedly provides only six situations for when a second
opinion examination should be referred. (Doc. # 30 at 1-8, 10, 15-17.) After briefing

7

515

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 8 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 516

was complete, on August 6, 2019, the Court issued its Order overruling Plaintiff’s
objections and adopting the Recommendation. (Doc. # 50.)
Reviewing the Recommendation under a de novo standard, the Court agreed
with Magistrate Judge Varholak that the OWCP’s act of scheduling Plaintiff for a second
opinion examination was discretionary pursuant to the FECA Manual. (Id. at 10-13.)
Applying the Supreme Court’s two-step test, the Court determined that (1) Defendant’s
act was “truly discretionary” because the plain language of the FECA Manual permits
the OWCP with discretion to order a second opinion examination (id. at 10-13); and (2)
Defendant’s exercise of discretion in ordering a second opinion examination served the
public policy of “regulating FECA claims and preventing criminal fraud against the
Government.” (Id. at 13-15); Berkovitz v. United States, 486 U.S. 531 (1988). Because
the discretionary function exception applied, the Court concluded that the FTCA did not
waive Defendant’s immunity over Plaintiff’s claim, and as a result, sovereign immunity
barred Plaintiff’s claim. (Id. at 15.) Therefore, the Court dismissed Plaintiff’s Complaint
without prejudice and entered judgment in favor of Defendant. (Id.\ Doc. # 51.)
On September 3, 2019, Plaintiff filed the instant Motion (Doc. # 52) and contends
that the Court erred in holding that when a second opinion examination may be ordered
is not limited to the enumerated list of situations contained in the FECA Manual,
Chapter 2-0810(9)(b). (Id. at 3-4.) Furthermore, Plaintiff asserts that if the Court refuses
to reconsider its judgment, manifest injustice would result. (Doc. # 57 at 2.) Defendant
filed its Response and argues that reconsideration is improper because Plaintiff’s
Motion sets forth arguments that Plaintiff has already made in his objections to the
8

516

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 9 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 517

Recommendation and that the Court has already addressed these issues in its Order
adopting the Recommendation. (Doc. # 56 at 3.) For the following reasons, Plaintiff’s
arguments are insufficient to necessitate reconsideration, and as such, Plaintiffs Motion
for Reconsideration is denied.
II.

LEGAL STANDARD

The Federal Rules of Civil Procedure do not explicitly authorize a motion for
reconsideration for final judgments or interlocutory orders. Van Skiver v. United States,
952 F.2d 1241, 1243 (10th Cir. 1991); Mantooth v. Bavaria Inn Rest., Inc., 360 F. Supp.
3d 1164, 1169 (D. Colo. 2019). However, regarding a final judgment, the Rules allow a
litigant who was subject to an adverse judgment to file a motion to change the judgment
pursuant to Rule 59(e) or a motion seeking relief from the judgment pursuant to Rule
60(b). Van Skiver, 952 F.2d at 1243.
There are three major grounds justifying reconsideration of an order under Rule
59(e): “(1) an intervening change in the controlling law, (2) new evidence [that was]
previously unavailable, [or] (3) the need to correct clear error or prevent manifest
injustice.” Servants of the Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000).
Moreover, a motion for reconsideration is appropriate where the court has
misapprehended the facts, a party’s position, or the controlling law, but such motions
are “inappropriate vehicles to reargue an issue previously addressed by the court when
the motion merely advances new arguments, or supporting facts which were available
at the time of the original motion.” Id. at 1012 (citing Van Skiver, 952 F.2d at 1243).

9
517

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 10 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 518

To that end, “[a]bsent extraordinary circumstances ... the basis for the second
motion must not have been available at the time the first motion was filed.” Servants of
the Paraclete, 204 F.3d at 1012. A motion for reconsideration is not appropriate to
revisit issues already addressed. Van Skiver, 952 F.2d at 1243. “Rather, as a practical
matter, to succeed in a motion to reconsider, a party must set forth facts or law of a
strongly convincing nature to induce the court to reverse its prior decision.” Mantooth,
360 F. Supp. 3d at 1169 (citing Nat’l Bus. Brokers, Ltd. v. Jim Williamson Prods., Inc.,
115 F. Supp. 2d 1250, 1256 (D. Colo. 2000)) (internal quotations omitted). “Even under
this lower standard, ‘[a] motion to reconsider should be denied unless it clearly
demonstrates manifest error of law or fact or presents newly discovered evidence.” Id.
(citing Sanchez v. Hartley, No. 13-cv-1945-WJM-CBS, 2014 WL 4852251, at *2 (D.
Colo. Sept. 30, 2014)).
III.

ANALYSIS

Plaintiff’s Motion is aimed at the third justification for warranting
reconsideration—that the Court must correct clear error or prevent manifest injustice.
(Doc. ## 52 at 4; 57 at 2.) The Court notes that Plaintiff tethers his argument that failure
to reconsider would result in manifest injustice to his contention that there are alleged
“clear errors” underlying the analysis of the Court’s Order. (Doc. # 57 at 2-9.) As such
the Court addresses only whether Plaintiff has demonstrated that the Court committed
any clear errors in its analysis. For the following reasons, Plaintiff failed to demonstrate
that reconsideration is warranted.
As a preliminary matter, Plaintiff’s Motion for Reconsideration is improper

10
518

Case l:18-cv-02378-CMA-STV Document 61
Appellate Case: 19-1436

Document: 010110266950

Filed 11/04/19 Page 11 of 14
Date Filed: 11/27/2019

Page: 519

because it is simply a rehash of arguments that Plaintiff previously asserted in his
Response in Opposition to Defendant’s Motion to Dismiss (Doc. #18) and his Objection
to the Recommendation (Doc. # 30). In his Motion, he argues that it is “self-evident” that
the Court erred in not determining that there are only seven2 circumstances in which a
claims examiner should schedule a second opinion examination and that such
scheduling is mandatory. (Doc. # 52 at 1-4.) In support of this argument, he avers that
the Court quoted the FECA Manual but omitted certain language in a “misleading” way,
and that such omissions mischaracterized the true, non-discretionary nature of ordering
a second opinion examination. (Id. at 3-4.) Plaintiff asserts that, in the Court’s prior
analysis, it omitted the emphasized language in the phrase“[i]n certain circumstances,
such as where the AP’s report does not meet the needs of the OWCP, OWCP may
schedule a second opinion examination.” (Doc. # 52 at 3-4 (citing FECA PM 3-0500(3))
(emphasis added).) He contends that when an OWCP may schedule a second opinion
examination is still limited only to the seven situations described in Chapter 2-0810-9(b)
because the omitted language purportedly references some of the situations set forth in
Chapter 2-0810-9(b). (Doc. # 52 at 4.)
Plaintiff’s contentions are old, previously rejected arguments with a new gloss.
The basis of his Motion for Reconsideration is predicated solely upon the fact that
Chapter 3-0500(2)(a) contains the phrase “[a] complete discussion of when a [claims

2 The Court notes that Plaintiff mentioned “seven situations” because he contends that the third
of six enumerated situations in which a claims examiner “should” refer a second opinion
examination provides two circumstances warranting a second opinion examination. (Doc. # 52
at 4 (citing FECA PM 2-0810-9(b)(1)—(6).)

11
519

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 12 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 520

examiner] should refer a case for a second opinion examination is found in PM 2-08109 .. .

(“complete discussion” phrase). (Id. at 3-5.) Yet, Plaintiff’s interpretation of the

“complete discussion” phrase guided his response to Defendant’s Motion to Dismiss
(Doc. # 18 at 10-15) and his Objection to the Recommendation (Doc. # 30 at 1-4). The
Court has already rejected Plaintiff’s interpretation, which provides that the use of
“complete discussion” to describe the situations in which a claims examiner should refer
a second opinion examination forecloses any other “circumstance . . . “for which OWCP
may [is permitted to] schedule a second opinion examination (SECOP).” (Doc. # 50 at
11-12 (quoting Doc. # 30 at 2) (alterations in original).)
Indeed, in the Court’s Order adopting the Recommendation, it interpreted the
FECA Manual to provide situations in which a claims examiner may and should refer a
second opinion examination. (Id. at 11-13.) The use of “may” in the FECA Manual
evinces a choice to permit a claims examiner with discretion to order a second opinion
examination outside of the confines of when a second opinion examination must be
ordered. (Id. at 12.) Given these two distinct situations, the Court observed that the
“complete discussion” phrase was only a reference to situations when the claims
examiner should refer a case for a second opinion examination as opposed to when a
claims examiner may schedule a second opinion examination. (Id. at 12-13.) Although
Plaintiff provides more detail about why the Court should adopt Plaintiff’s interpretation
of the “complete discussion” phrase, those additional details arise from neither new
information nor law that was previously unavailable to Plaintiff at the Motion to Dismiss
and Objection stages of this litigation. Servants of Paraclete, 204 F.3d at 1012.
12
520

Case l:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 13 of 14
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 521

Accordingly, Plaintiff’s Motion is an improper rehash of previously rejected arguments
and as such, reconsideration is unwarranted.
Furthermore, the new gloss to Plaintiff’s argument does not convince this Court
that it erred in its decision. Plaintiff’s contention that the “omitted phrase” in Chapter 30500(3) is a reference to situations set forth only in Chapter 2-0810-9(b) demonstrates
that he fails to consider that the meanings of “may” and “should” are not synonymous.
Failure to recognize this distinction is fatal to Plaintiff’s argument because any situation
in which a claims examiner “may” order a second opinion examination, “such as where
the AP's report does not meet the needs of the OWCP,” cannot be a reference only to
those situations listed in Chapter 2-0810-9(b), where a claims examiner “should” refer a
second opinion examination. Plaintiff’s proffered interpretation (Doc. # 52 at 3-4) would
render Chapter 3-0500(3) and the first sentence of Chapter 3-0500(3)(a) meaningless.
Accordingly, the Court is unpersuaded that it erred.
Because Plaintiff failed to demonstrate that the Court erred in its decision,
manifest injustice will not result. In the absence of any evidence of extraordinary
circumstances warranting reconsideration, the Court declines to revisit issues that it has
v

already thoughtfully considered and decided. Accordingly, Plaintiff’s Motion for
Reconsideration is denied.

13
521

Case 1:18-cv-02378-CMA-STV Document 61 Filed 11/04/19 Page 14 of 14
Appellate Case: 19-1436

Document: 010110266950

IV.

Date Filed: 11/27/2019

Page: 522

CONCLUSION

Based on the foregoing reasons, the Court ORDERS that Plaintiff's Motion to
Reconsider (Doc. # 52) is DENIED.
DATED: November 4, 2019.
BY THE COURT:

OyXtuITl. |V\ &LDU d&Mz.
CHRISTINE M. ARGMjLLO
United States District Judge

14
522

APPENDIX D
v

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 1 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 454

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 18-cv-02378-CMA-STV
WARREN WEXLER,
Plaintiff,
v.
UNITED STATES OF AMERICA,
Defendant.
ORDER ADOPTING THE RECOMMENDATION OF UNITED STATES MAGISTRATE
JUDGE SCOTT T. VARHOLAK
This matter is before the Court on review of the Recommendation by United
States Magistrate Judge Scott T. Varholak (Doc. # 27), wherein he recommends that
this Court grant Defendant United States’ Motion to Dismiss (Doc. # 10). On May 24,
2019, Plaintiff Warren Wexler filed his Objection to the Recommendation (Doc. # 30).
On June 7, 2019, Defendant files its Response to the Objection (Doc. # 32). In addition
to filing his Reply to the Response on June 10, 2019 (Doc. # 33), Plaintiff filed several
supplements1 to his Objection (Doc. ## 31, 36, 38, 40-43). For the following reasons,
Plaintiff’s objections are overruled, and the Court adopts the Recommendation.

1

While Plaintiff labeled these filings as “motions” (Doc. ## 31,36, 38), the contents therein
reflect corrections, modifications, or arguments related to his Objection to the Recommendation.
The Defendant responded to these filings on July 18, 2019. (Doc. # 44.) Plaintiff responded to
this response on July 24, 2019. (Doc. # 45.)

454

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 2 of 15
Appellate Case: 19-1436

Document: 010110266950

I.
A.

Date Filed: 11/27/2019

Page: 455

BACKGROUND

FACTUAL BACKGROUND AND PROCEDURAL HISTORY
Magistrate Judge Varholak provided a thorough recitation of the factual and

procedural background in this case. The Recommendation is incorporated herein by
reference, see 28 U.S.C. § 636(b)(1)(B); Fed. R. Civ. P. 72(b), and the facts will be
repeated only to the extent necessary to address Plaintiff’s Objection.
The Federal Employees’ Compensation Act (“FECA”) “defines the United States’
exclusive liability for claims by federal employees for work-related injuries.” Wideman v.
Watson, 617 F. App’x 891,894 (10th Cir. 2015) (citing 5 U.S.C. §§ 8102(a), 8116(c));
Farley v. United States, 162 F.3d 613, 615 (10th Cir. 1998)). It provides that “the United
States will pay compensation for the disability or death of an employee resulting from
personal injury sustained while in the performance of his duty . ...” 5 U.S.C. § 8102(a),
20 C.F.R. § 10.1. The Secretary of Labor may also prescribe rules and regulations
necessary for the administration and enforcement of the Act. 5 U.S.C. § 8149. The
authority provided by 5 U.S.C. §§ 8145 and 8149 has been delegated by the Secretary
to the Director of the Office of Worker’s Compensation (“OWCP”). 20 C.F.R. § 10.2. The
OWCP’s discretion in determining how to administer FECA has been described as
“virtually limitless.” See Markham v. United States, 434 F.3d 1185, 1188 (9th Cir. 2006).
A subdivision of OWCP, the Division of Federal Employees’ Compensation
(“DFEC”), drafted the FECA Procedure Manual (“FECA Manual”) to “governQ claims
under [] FECA and address[] its relationship to the program’s other written directives.”
FECA PM 0-100(3), 0-0200(1). The FECA Manual “establishes policies, guidelines and
2
455

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 3 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 456

procedures for determining whether an injured employee is eligible for compensation.”
Woodruff v. U.S. Dep’t of Labor, 954 F.2d 634, 641 (11th Cir. 1992). Pertinent to the
instant action, the FECA Manual also governs the parameters for when a FECA claim
examiner may direct or schedule a second opinion examination of an injured employee.
FECA PM 3-0500, 2-810(9).
Plaintiff applied for FECA benefits in 1991, and upon the OWCP’s approval of his
application, OWCP began paying Plaintiff wage-loss benefits for his total disability.
(Doc. # 10 at 4.) In July 2015, pursuant to 5 U.S.C. § 8123(a),2 the Denver District
Office (“DDO”) of the OWCP sent Plaintiff a letter providing that a second opinion
examination of him was scheduled for August 17, 2015. (Doc. # 1-2 at 1; Doc. # 10-1 at
3, If 16,) According to the DDO, a second opinion examination was necessary “to
ensure prompt handling of’ Plaintiff’s claim because the most recent medical report from
Plaintiffs attending physician (“AP”) was more than three years old and a current
medical report is due every three years. (Doc. # 10-1 at 58; Doc. # 1-2 at 1, 17.)
After Plaintiff received the DDO letter, he sent approximately twelve letters to the
DDO and one to the Department of Labor (“DOL”), within which he requested both
entities to cancel the second opinion examination and threatened to sue the entities for
intentional infliction of emotional distress (“IIED”) if cancellation did not occur. (Id. at 12, 7, 12-14.) The DDO declined to cancel the second opinion examination. (Id. at 2.)

“An employee shall submit to examination by a medical officer of the United States, or by a
physician designated or approved by the Secretary of Labor, after the injury and as frequently
and at the times and places as may be reasonably required.” 5 U.S.C. § 8123(a).
3
456

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 4 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 457

Both parties represent that Plaintiff attended the second opinion examination on August
17, 2015. (Doc. # 10 at 5; Doc. # 1-2 at 21.)
On September 17, 2018, Plaintiff filed suit against Defendant and asserted an
IIED claim arising out of the OWCP’s decision to schedule Plaintiff for a second opinion
examination. (Doc. # 1, Doc. # 1-2 at 12-15, 21-22). Defendant moved to dismiss
Plaintiff’s Complaint for lack of subject matter jurisdiction under Rule 12(b)(1) and for
failure to state a claim pursuant to Rule 12(b)(6). (Doc. # 10.) Plaintiff responded to the
Motion to Dismiss on December 31, 2018 (Doc. # 18), and he supplemented his
response on July 29, 2019 (Doc. # 49). Defendant filed its Reply to the Response on
February 25, 2019. (Doc. # 24.)
B.

THE MAGISTRATE JUDGE’S RECOMMENDATION
Magistrate Judge Varholak issued his Recommendation that the Court should

dismiss Plaintiff’s Complaint for lack of subject matter jurisdiction on April 24, 2019.3
(Doc. # 27.) The Magistrate Judge determined that sovereign immunity barred Plaintiff’s
claims because such claims arose from a government employee’s performance of
discretionary acts. {Id. at 12.) While the Federal Torts Claim Act (“FTCA”) provides that
the United States has waived its sovereign immunity over certain tort claims, the
Magistrate Judge correctly observed that there are exceptions to this waiver, including
one for the performance or failure to perform discretionary acts. {Id. at 5-6).

3 The Magistrate Judge declined to address Defendant’s other arguments pertaining to the
statute of limitations and failure to state a claim under Rule 12(b)(6). (Doc. #27 at 5.) Because
the Court agrees with the Recommendation, the Court too declines to consider the other
grounds upon which Defendant requests to dismiss Plaintiff’s Complaint.
4
457

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 5 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 458

To determine whether this exception insulated Defendant from liability, the
Magistrate Judge conducted the two-step inquiry from Berkovitz v. United States, 486
U.S. 531 (1988). He concluded that, first, Defendant’s act of scheduling a second
opinion examination of Plaintiff was a discretionary act (Id. at 7-11), and second, that
Defendant’s discretionary act served public policies. (Id. at 12.) Because both Berkovitz
steps were satisfied, the Magistrate Judge recommends dismissal of Plaintiff’s claims
without prejudice. (Id.)
On May 24, 2019, Plaintiff filed his objections to the Recommendation. (Doc. #
30.) Plaintiff contends that Magistrate Judge Varholak erred in determining that
Defendant’s act of directing the second opinion examination was discretionary. (Id. at
2.) Plaintiff argues that when Defendant ordered the second opinion examination, it
violated mandatory regulations set forth in the FECA Manual. (Doc. # 30 at 1-8.) As
such, Plaintiff asserts that the discretionary function exception does not apply (Id. at 10
15-17), which dictates the conclusion that the Defendant has waived sovereign
immunity under the FTCA. For the following reasons, the Court adopts the
Recommendation and overrules Plaintiff’s objections.
II.
A.

LEGAL STANDARDS

REVIEW OF A RECOMMENDATION
When a magistrate judge issues a recommendation on a dispositive matter, Rule

72(b)(3) requires that the district judge “determine de novo any part of the magistrate
judge’s [recommended] disposition that has been properly objected to.” An objection is
properly made if it is both timely and specific. United States v. One Parcel of Real

5
458

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 6 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 459

Property Known As 2121 East 30th Street, 73 F.3d 1057, 1059 (10th Cir. 1996). In
conducting its review, “[t]he district judge may accept, reject, or modify the
recommended disposition; receive further evidence; or return the matter to the
magistrate judge with instructions.” Fed. R. Civ. P. 72(b)(3).
B.

PRO SE PLAINTIFF
Plaintiff is proceeding pro se. The Court, therefore, reviews his pleading “liberally

and hold[s] [it] to a less stringent standard than those drafted by attorneys.” Trackwell v.
United States, 472 F.3d 1242, 1243 (10th Cir. 2007) (citations omitted). However, a pro
se litigant’s “conclusory allegations without supporting factual averments are insufficient
to state a claim upon which relief can be based.” Hall v. Bellmon, 935 F.2d 1106, 1110
(10th Cir. 1991). A court may not assume that a plaintiff can prove facts that have not
been alleged, or that a defendant has violated laws in ways that a plaintiff has not
alleged. Associated Gen. Contractors of Cal., Inc. v. Cal. State Council of Carpenters
459 U.S. 519, 526 (1983); see also Whitney v. New Mexico, 113 F.3d 1170, 1173-74
(10th Cir. 1997) (a court may not “supply additional factual allegations to round out a
plaintiff’s complaint”).
C.

RULE 12(B)(1)
Rule 12(b)(1) concerns whether a court has jurisdiction to properly hear the case

before it. “Federal courts are courts of limited jurisdiction and, as such, must have a
statutory basis to exercise jurisdiction.” Montoya v. Chao, 296 F.3d 952, 955 (10th Cir.
2002) (citing Morns v. City of Hobart, 39 F.3d 1105, 1111 (10th Cir. 1994)). Courts
strictly construe statutes conferring subject matter jurisdiction on federal courts and

6
459

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 7 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 460

resolve doubts against federal jurisdiction. F &S Constr. Co. v. Jensen, 337 F.3d 160,
161-62 (10th Cir. 1964). The party asserting subject matter jurisdiction has the burden
to establish jurisdiction. Port City Props, v. Union Pac. R.R. Co., 518 F.3d 1186, 1189
(10th Cir. 2008).
Rule 12(b)(1) challenges may take two forms: a facial attack on the sufficiency of
the plaintiff’s allegations as to subject matter jurisdiction or a factual attack on the facts
upon which subject matter jurisdiction is based. Ruiz v. McDonnell, 299 F.3d 1173
1180 (10th Cir. 2002) (citing Holt v. United States, 46 F.3d 1000, 1002-03 (10th Cir.
1995)). In the instant action, Defendant raises a factual attack. (Doc. # 10 at 8.); Holt, 46
F.3d at 1003 (concluding that factual issue as to whether a statute conferring immunity
was implicated gave rise to factual attack on subject-matter jurisdiction). Defendant
may, therefore, go beyond allegations contained in Plaintiff’s Complaint. Holt, 46 F.3d at
1003. The Court “may not presume the truthfulness of the complaint’s factual
allegations” and “has wide discretion to allow affidavits, other documents, and a limited
evidentiary hearing to resolve disputed jurisdictional facts.” Id. (citing Wheeler v.
Hurdman, 835 F.2d 257, 259 n.5 (10th Cir 1987)). In these circumstances, the Court’s
reference to evidence outside the Complaint does not convert the motion to a Rule 56
motion for summary judgment. Id.
D.

FTCA AND SOVEREIGN IMMUNITY
“[Sjovereign immunity shields the Federal Government and its agencies from

suit.” F.D.I.C. v. Meyer, 510 U.S. 471,475 (1984). As such, “[sjovereign immunity
precludes federal court jurisdiction.” Garling v. United States Envtl. Prot. Agency, 849

7
460

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 8 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 461

F.3d 1289, 1294 (10th Cir. 2017). Indeed, “[i]t is axiomatic that the United States may
not be sued without its consent and that the existence of consent is a prerequisite for
jurisdiction.” United States v. Mitchell, 463 U.S. 206, 212 (1983). The “United States can
be sued only to the extent that it has waived its immunity.” Garling, 849 F.3d at 1294
(quoting United States v. Orleans, 425 U.S. 807, 814 (1976)).
The FTCA “is a limited waiver of sovereign immunity, making the Federal
Government liable to the same extent as a private party for certain torts of federal
employees acting within the scope of their employment.” Orleans, 425 U.S. at 814; 28
U.S.C. § 1346(b)(1). However, 28 U.S.C. Section 2680 provides exceptions to this
waiver. Garling, 849 F.3d at 1294. “When an exception applies, sovereign immunity
remains, and federal courts lack jurisdiction.” Id.
Relevant for resolving the instant Motion, the discretionary function exception set
forth in 28 U.S.C. Section 2680(a) provides:
Any claim based upon an act or omission of an employee of the Government,
exercising due care, in the execution of a statute or regulation, whether or not
such statute or regulation be valid, or based upon the exercise or performance or
the failure to exercise or perform a discretionary function or duty on the part of a
federal agency or an employee of the Government, whether or not the discretion
involved be abused.
The “discretionary function exception ‘marks the boundary between Congress’
willingness to impose tort liability upon the United States and its desire to protect certain
governmental activities from exposure to suit by private individuals.’” Garling, 849 F.3d
at 1295 (quoting United States v. S.A. Empresa de Viacao Aerea Rio Grandense, 467
U.S. 797, 808(1984)).

8
461

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 9 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 462

Courts apply a two-step test to determine whether the discretionary function
exception applies to a government action. Berkovitz v. United States, 486 U.S. 531
(1988). First, a court must determine whether the act was discretionary, that is, whether
the act was “a matter of choice” or “judgment” for the acting employee.” Sydnes v.
United States, 523 F.3d 1179, 1183 (10th Cir. 2008) (quotations omitted); Garling, 849
F.3d at 1295 (citing Garcia v. Air Force, 533 F.3d 1170, 1176 (10th Cir. 2008)).
“Conduct is not discretionary if a federal statute, regulation, or policy specifically
prescribes a course of action for an employee to follow. In this event, the employee has
no rightful option but to adhere to the directive.” Garcia, 533 F.3d at 1176.
If the conduct is discretionary, the court moves to the second step of the
Berkovitz test and considers whether the conduct required the “exercise of judgment
based on considerations of public policy.” Garling, 849 F.3d at 1295; Berkovitz, 486
U.S. at 536-37. This is so because the “basis for the discretionary function exception
was Congress’ desire to ‘prevent judicial ‘second-guessing’ of legislative and
administrative decisions grounded in social, economic, and political policy through the
medium of an action in tort.’” Berkovitz, 486 U.S. at 536-37 (quoting United States v.
Vang Airlines, 467 U.S. 797, 814 (1984)).
“Because the discretionary function exception is jurisdictional, the burden is on
[the plaintiff] to prove that it does not apply.” Hardscrabble Ranch, L.L.C. v. United
States, 840 F.3d 1216, 1220 (10th Cir. 2016).

9
462

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 10 of 15
Appellate Case: 19-1436

Document: 010110266950

III.

Date Filed: 11/27/2019

Page: 463

ANALYSIS

Whether sovereign immunity bars Plaintiff’s claim depends on whether the
Defendant’s act of scheduling a second opinion examination was within the discretion of
the OWCP or was in violation of mandatory procedures imported in the FECA Manual.
Thus, to resolve the instant Motion, the Court reviews whether the discretionary function
exception applies, and in doing so, agrees with the Magistrate Judge that the Court
must conduct the two-step analysis from Berkovitz. (Doc. # 27 at 5-6.)
A.

STEP ONE: WHETHER THE ACT WAS DISCRETIONARY
The first Berkovitz step requires the Court to determine whether the challenged

conduct was “discretionary,” that is whether it was “a matter of judgment or choice for
the acting employee.” Garling, 849 F.3d at 1295 (quoting Garcia, 533 F.3d at 1176). If a
federal statute, regulation, or policy “prescribes a course of action for an employee to
follow,” the conduct is not discretionary. Id. Magistrate Judge Varholak determined that
while the FECA Manual prescribes certain situations in which “a claim examiner should
refer a claim to a second opinion specialist[,]” the FECA Manual does not expressly
prohibit a claims examiner from seeking a second opinion in any other situation. (Doc. #
27 at 8.) Yet, Plaintiff argues that the FECA Manual constitutes a policy that prohibits
second opinion examinations except in six situations. (Doc. # 30 at 1-4.) The Court
agrees with the Magistrate Judge.
Six of Plaintiff’s ten enumerated objections are rooted in the argument that the
FECA Manual establishes only six situations in which a second opinion examination
may be required. (Id. at 1-11, 15-16.) In support of these objections, Plaintiff asserts

10
463

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 11 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 464

that four portions of the FECA Manual provide “mandatory regulations that the OWCP
violated when ordering the second opinion” examination. (Doc. # 27 at 7; Doc. # 18 at
10-13.) The Court agrees with Magistrate Judge Varholak’s analysis that none of these
portions compel the conclusion that ordering a second opinion examination was not
discretionary. (Doc. # 27 at 7-11.) However, the Court need only address FECA
Manual’s Chapter 3-0500 to resolve this case.
Chapter 3-0500, Paragraph 3 provides:
3. Second Opinion Examinations. The attending physician (AP) is the primary
source of medical evidence in most cases, and the AP is expected to provide a
rationalized medical opinion based on a complete medical and factual
background in order to resolve any pending issues in a case. In certain
circumstances, such as where the AP’s report does not meet the needs of the
OWCP, OWCP may schedule a second opinion examination (SECOP).
a. Determining the Need for Examination. The decision to refer a case
for a second opinion examination rests with the CE, though such an
exam may be recommended by a Field Nurse (FN) or District Medical
Advisor (DMA), or requested by the employing agency. A complete
discussion of when a CE should refer a second opinion examination is
found in PM2-0810-9 and 2-810-10.
Also, OWCP may send a case file for second opinion review where actual
examination is not needed, or when the employee is deceased.
FECA PM 3-0500(3)(a) (emphases added). Plaintiff argues that the phrase “complete
discussion” means “full and finished” and “not lacking in any way,” which indicates that
the only situations in which a claim examiner can refer a case for a second opinion
examination are those demarcated in FECA Manual Chapter 2-0810(9)(b). (Doc. # 30 at
1-3 (citing Complete, The Law Dictionary, Feat. Black’s Law Dictionary Free Online
Dictionary (2d ed.).) Further, Plaintiff argues that Chapter 2-0810(9)(b) read in
conjunction with Chapter 3-0500(3) provides that the OWCP “does not have discretion
11
464

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 12 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 465

over scheduling a [Second Opinion Evaluation] and that the six situations set forth in
Chapter 2-0810(9)(b) “are strictly the only situations for which OWCP should schedule a
second opinion (SECOP) evaluation!.]” (Id. at 2 (emphasis in original).)
The plain language of Chapter 3-0500(3) contradicts Plaintiff’s arguments.
Chapter 3-0500(3) provides that under “certain circumstances,” the OWCP “may
schedule a second opinion examination!,]” whereas Chapter 3-0500(3)(a) provides that
there are other situations “when a CE should refer a case for a second opinion
examination!.]” FECA PM 3-0500(3), (3)(a) (emphases added). It must follow that
Chapter 3-0500(3) dispels the notion that Chapter 3-0500(3)(a) presents the only
situations in which a claim examiner can schedule a second opinion examination.
Indeed, the use of “may” in Chapter 3-0500(3) and “should” in Chapter 3-0500(3)(a)
incontrovertibly establishes that the FECA Manual sets forth two sets of situations
where the claim examiner may and should arrange for a second opinion examination.
Furthermore, in conjunction with language in Chapter 3-0500(3), Chapter 30500(3)(a)’s provision allocates the “decision to refer a case for a second opinion
examination” with a claim examiner. This provision too forecloses Plaintiff’s assertion
that the FECA Manual promulgates mandatory regulations governing when a second
opinion examination can be scheduled.
Moreover, that Chapter 3-500(3)(a) contains the phrase “complete discussion” is
of no import. Because Chapter 3-0500(3)(a) governs instances in which the claim
examiner should refer an employee’s case for a second opinion examination as
opposed to when a claim examiner may do so, Chapter 3-0500(3)(a)’s use of “complete

12
465

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 13 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 466

discussion” should only apply to when the claim examiner should refer a case for a
second opinion examination. Thus, even if the Court ascribed the meaning of exclusivity
to “complete discussion,” based on the structure of Chapter 3, that limitation would only
apply to the subject matter of Chapter 3-0500(3)(a)—not Chapter 3-0500(3). As such,
the alleged exclusive nature of the six situations set forth in Chapter 2-0810(9)(b) would
not apply to the “certain circumstances” where a claim examiner “may schedule a
second opinion examination.” FECA PM 3-0500(3).
In the instant case, the FECA Manual’s plain language reveals that Defendant’s
ability to schedule a second opinion examination of Plaintiff was a matter of choice or
judgment for the OWCP. In other words, Defendant’s conduct was discretionary. Thus,
if the OWCP exercised its discretion to direct the second opinion evaluation, regardless
of whether such exercise was in bad faith, Defendant is immune from liability arising
from that conduct. 28 U.S.C. § 2680(a). Accordingly, the first Berkovitz step is satisfied.
B.

STEP TWO: WHETHER THE ACT IMPLICATES A POLICY JUDGMENT
Because Defendant’s conduct is discretionary, the court moves to the second

step of the Berkovitz test and considers whether the conduct required the “exercise of
judgment based on considerations of public policy.” Garling, 849 F.3d at 1295;
Berkovitz, 486 U.S. at 536-37. As Magistrate Judge Varholak observed, the Supreme
Court expounded upon the second step in United States v. Gaubert and explained:
When established government policy, as expressed or implied by statute,
regulation, or agency guidelines, allows a Government agent to exercise
discretion, it must be presumed that the agent’s acts are grounded in policy when
exercising that discretion. For a complaint to survive a motion to dismiss, it must
allege facts which would support a finding that the challenged actions are not the
kind of conduct that can be said to be grounded in the policy of the regulatory
13
466

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 14 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 467

regime. The focus of the inquiry is not the agent’s subjective intent in exercising
the discretion conferred by statute or regulation, but on the nature of the actions
taken and on whether they are susceptible to policy analysis.
499 U.S. 315, 324-25 (1991). Construing Gaubert, the United States Court of Appeals
for the Tenth Circuit determined that courts must ask “if the decision or nondecision
implicates the exercise of a policy judgment of a social, economic, or political nature.”
Duke v. Dep’t of Agric., 131 F.3d 1407, 1411 (10th Cir. 1997).
Despite the fact that the burden rests with Plaintiff, he did not address the second
Berkovitz step because he contends that “it was unnecessary” as the discretionary
function exception does not apply. (Doc. # 27 at 11; Doc. # 30 at 16); Hardscrabble
Ranch, 840 F.3d at 1220. As set forth above, the Court is unconvinced of that position.
Setting that failure aside, the Court agrees with Magistrate Judge Varholak’s conclusion
that Defendant’s discretionary conduct was based on considerations of public policy.
(Doc. # 27 at 11-12.) Indeed, the Magistrate Judge was correct in articulating that
requesting a second opinion examination served the public policies of “regulating FECA
claims and preventing criminal fraud against the Government.” (Doc. # 27 at 12 (citing
Mumme v. United States, No. 00-CV-103-B, 2001 WL 80084, at *4 (D. Me. Jan. 29,
2001) (quoting Ward v. United States, 738 F. Supp. 129, 133 (D. Del. 1990)).).
In the instant case, when the OWCP exercised discretion to schedule a second
opinion examination to investigate whether Plaintiff was still entitled to FECA benefits,
such conduct advanced the FECA Manual’s purpose of governing the process by which
the OWCP determines whether an injured employee is eligible for compensation and
ensured that fraud was not perpetrated against the Government. As such, Defendant’s

14
467

Case l:18-cv-02378-CMA-STV Document 50 Filed 08/06/19 Page 15 of 15
Appellate Case: 19-1436

Document: 010110266950

Date Filed: 11/27/2019

Page: 468

discretionary conduct is grounded in the policy of FECA’s regulatory regime.
Accordingly, the second Berkovitz step is satisfied.
Because both Berkovitz steps have been met, the discretionary function
exception applies and the FTCA does not waive Defendant’s immunity over Plaintiff’s
claim. Therefore, because sovereign immunity bars Plaintiff’s claim, the Court does not
have subject matter to adjudicate that claim. Accordingly, the Court adopts the
Recommendation and dismisses Plaintiff’s Complaint without prejudice.4
IV.

CONCLUSION

For the foregoing reasons, the Court ORDERS as follows:
1. Plaintiffs Objection (Doc. # 30) to the Recommendation is OVERRULED;
2. Magistrate Judge Varholak’s Recommendation (Doc. # 27) is AFFIRMED and
ADOPTED as an Order of this Court;
3. Defendant United States’ Motion to Dismiss (Doc. # 10) is GRANTED; and
4. Plaintiff’s Complaint (Doc. # 1) is DISMISSED WITHOUT PREJUDICE.
DATED: August 6, 2019
BY THE COURT:

CHRISTINE M. ARGL(f LLO
United States District Judge

4 «

[Dismissals for lack of jurisdiction should be without prejudice because the court, having
determined that it lacks jurisdiction over the action, is incapable of reaching a disposition on the
merits of the underlying claims.” Brereton v. Bountiful City Corp., 434 F.2d 1213, 1218 (10th Cir.
2006) (emphasis in original).
15
468

